POSTAL REGULATORY COMMISSION

  OFFICE OF INSPECTOR GENERAL




  SEMIANNUAL REPORT TO CONGRESS

    April 1, 2009 through September 30, 2009
                                 TABLE OF CONTENTS



                                                                                                PAGE

Introduction........................................................................................ 2

Activities of the Office of Inspector General .................................... 3

Inspector General Act Reports .......................................................... 5

Contact Information ........................................................................... 8
INTRODUCTION
   THE POSTAL REGULATORY COMMISSION
       The Postal Regulatory Commission is an independent federal agency established
       (as the Postal Rate Commission) by the Postal Reorganization Act of 1970. From
       its establishment through the enactment of the Postal Accountability and
       Enhancement Act (PAEA) of 2006, the Commission primarily received United
       States Postal Service proposals for domestic mail rates and classifications,
       presided over litigation regarding those proposals, and recommended rates and
       classifications to the Board of Governors of the United States Postal Service.
       PAEA, which was enacted on December 20, 2006, re-designated the Commission,
       expanded its jurisdiction to include international mail and service standards, and
       charged the Commission with implementing a new system of postal rate
       regulation.

       The Postal Regulatory Commission consists of five Commissioners who are
       appointed for six-year terms by the President, with the advice and consent of the
       Senate. No more than three of the Commissioners can be members of the same
       political party. The President designates one of the Commissioners to serve as
       Chairman, and the Commissioners, by majority vote, select one Commissioner to
       serve as Vice Chairman. In August 2009, President Barack Obama designated
       Commissioner Ruth Y. Goldway Chairman of the Postal Regulatory Commission,
       succeeding Dan G. Blair.

   THE OFFICE OF INSPECTOR GENERAL
       The Commission established the Office of Inspector General (OIG) on June 15,
       2007 and hired the first Inspector General on June 23, 2007. During the
       reporting period, OIG had two full-time employees—the Inspector General and
       an administrative assistant. OIG was assisted in the conduct of its audits and
       inspections during the reporting period by three auditors on detail from the
       United States Postal Service Office of Inspector General.




                                       2
ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL
   AUDITS AND EVALUATIONS
       Under the Inspector General Act of 1978 as amended (IG Act), the Inspector
       General provides policy direction and conducts, supervises and coordinates
       audits relating to programs and operations of the Postal Regulatory Commission.

       During the reporting period, OIG completed two final audit reports, which are
       summarized below:

       FINAL AUDIT REPORT: PRC TRAVEL POLICY AND PRACTICES

       OIG initiated an audit of the PRC’s travel policies and practices to determine if
       travel expenses were properly supported and complied with the Commission’s
       policies and procedures. The audit identified opportunities to strengthen the
       policy, and included four recommendations to assist with the overall management
       of these expenditures. Management agreed with these recommendations and
       established target dates for their implementation.

       FINAL AUDIT REPORT: EMPLOYEE TRANSPORTATION SUBSIDY PROGRAM

       Based on concerns raised by Chairman Dan G. Blair, OIG initiated an audit of
       the Commission’s transportation subsidy program, which provides subsidies to
       PRC employees for parking spaces and for the use of public transportation. The
       objective of the audit was to determine if transportation subsidy expenses were
       properly supported and complied with PRC procedures and practices. OIG found
       that overall, the PRC’s transportation subsidy expenses were properly supported.
       However, during the period reviewed, PRC rented more unassigned parking
       spaces than necessary, and in some instances provided metro transit benefits to
       employees without adequate supporting documentation on file. OIG reported the
       cost of the excess parking spaces as $15,214 in funds put to better use, and the
       cost of the undocumented metro transit benefits as $12,664 in unrecoverable
       unsupported questioned costs. The final audit report included eight
       recommendations. Management agreed with these recommendations and set
       target dates for the implementation of each.

       ONGOING AUDITS AND EVALUATIONS

       At the close of the reporting period, the following reviews were ongoing: a
       benchmarking review of PRC’s alternate work schedule (AWS) and telework
       policies; and an audit of compensation changes and performance awards.




                                       3
INVESTIGATIVE ACTIVITIES
     Under the IG Act, OIG receives and investigates allegations of fraud, waste,
     abuse and misconduct within Commission programs and operations. OIG
     investigations can give rise to administrative, civil and criminal penalties.

     In order to facilitate reporting of allegations, OIG maintains a hotline (see
     “Contacting the Office of Inspector General,” Page 8). During the reporting
     period, OIG received hotline contacts via postal mail, electronic mail and
     telephone. Many were complaints regarding the United States Postal Service,
     which OIG forwarded for action.

     OIG did not refer any matters for prosecution during the reporting period.

OTHER ACTIVITIES
     REGULATORY REVIEW

     Under Section 4(a)(2) of the IG Act, OIG reviews drafts of proposed
     Commission rules and regulations. During the reporting period, OIG provided
     comments regarding draft Commission regulations and policies, including
     revised Freedom of Information Act rules and regulations establishing procedures
     for obtaining information from the Postal Service.

     LIAISON ACTIVITIES

     The Inspector General is a member of the Council of Inspectors General on
     Integrity and Efficiency (CIGIE), which was established on October 14, 2008,
     pursuant to the Inspector General Reform Act of 2008. During the reporting
     period, the Inspector General attended monthly meetings of CIGIE, as well as its
     annual training conference. Also during the period, the IG was named to
     CIGIE’s Legislation and Information Technology committees.




                                     4
                INSPECTOR GENERAL ACT REPORTS

Section 5(a) of the IG Act requires that the following information be included in semiannual
reports.




   REFERENCE                       REPORTING REQUIREMENT                             PAGE


   Section 5(a)(1)   Significant problems, abuses or deficiencies identified          None

   Section 5(a)(2)   Recommendations for corrective action                            None

   Section 5(a)(3)   Open recommendations from previous semiannual reports            None

   Section 5(a)(4)   Matters referred to prosecutors, disposition                     None

   Section 5(a)(5)   Reports of information or assistance unreasonably withheld       None

   Section 5(a)(6)   Listing by subject of audit reports issued                      Page 3

   Section 5(a)(7)   Summary of particularly significant reports                     Page 3

   Section 5(a)(8)   Statistical table—questioned costs                              Table 1

   Section 5(a)(9)   Statistical table—recommendations that funds be put to          Table II
                     better use

  Section 5(a)(10) Audit reports from prior reporting periods for which no            None
                   management decision had been made

  Section 5(a)(11) Significant revised management decisions                           None

  Section 5(a)(12) Significant management decisions with which the IG is in           None
                   disagreement

  Section 5(a)(13) Information under section 05(b) of the FFMIA                       None




                                                5
                                         Table 1

            AUDIT REPORTS WITH QUESTIONED COSTS


                                  Number        Number
                                    of            of          Questioned   Unsupported
                                  Reports   Recommendations     Costs         Costs

A.   For which no management
     decision has been made by       0             0              0             0
     the commencement of the
     reporting period.

                                     1             1           $12,664       $12,664
B.   Which were issued during
     the reporting period.


                Subtotals (A+B)      0             0              0             0


C.   For which a management
     decision was made during        1             1           $12,664       $12,664
     the reporting period.


D.   For which no management
     decision has been made by
                                     0             0              0             0
     the end of the reporting
     period.


E.   For which no management
     decision was made within        0             0              0             0
     six months of issuance.




                                             6
                                          Table II

       AUDIT REPORTS WITH RECOMMENDATIONS THAT
              FUNDS BE PUT TO BETTER USE


                                            Number        Number
                                              of            of          Dollar Value
                                            Reports   Recommendations

A.   For which no management decision
     has been made by the commencement           0           0               0
     of the reporting period.


B.   Which were issued during the
                                                 1           1            $15,214
     reporting period.


                        Subtotals (A+B)          0           0               0


C.   For which a management decision
                                                                          $15,214
     was made during the reporting               1           1
     period.


D.   For which no management decision
     has been made by the end of the             0           0               0
     reporting period.


E.   For which no management decision
     was made within six months of               0           0               0
     issuance.




                                             7
                     CONTACTING THE
               OFFICE OF INSPECTOR GENERAL


In our mission to detect and prevent waste, fraud and abuse and to
promote efficiency and economy at the Postal Regulatory Commission,
the Office of Inspector General relies on information provided by PRC
staff and the general public.

Contact OIG to report illegal or wasteful activities or to receive copies
of OIG reports:

                               Telephone:
                           202-789-6817

                                 E-Mail:
                         prc-ig@prc.gov

                                Internet:
                    http://www.prc.gov/oig

                                  Mail:
                      P.O. Box 50264
                    Washington, DC 20091

 IDENTITIES OF WRITERS AND CALLERS ARE PROTECTED TO THE FULL EXTENT
                             OF THE LAW.



                                     8
